                                    SOCIAL SECURITY
MEMORANDUM

Date:   May 26, 2010                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Trust Fund Projections (A-15-10-20134)



        The attached final quick response evaluation presents the results of our review. Our
        objective was to determine how the short- and long-range estimates for cost and
        income presented in the Annual Trustees Report fluctuated from year to year and how
        accurately the projections reflected the actual performance of the Old-Age, Survivors
        and Disability Insurance Trust Funds.

        In preparing this report, we worked directly with the Office of the Chief Actuary and the
        Office of the Chief Economist. If you wish to discuss the final report, please call me or
        have your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                            Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
 Trust Fund Projections

      A-15-10-20134




        May 2010
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                    Background
OBJECTIVE
Our objective was to determine how the short- and long-range estimates for cost and
income presented in the Annual Trustees Report fluctuated from year to year and how
accurately the projections reflected the actual performance of the Old-Age, Survivors
and Disability Insurance (OASDI) Trust Funds.

BACKGROUND
The Social Security Trust Funds include the Old-Age and Survivors Insurance (OASI)
and Disability Insurance (DI) Trust Funds. The OASDI program makes available a
basic level of monthly income when insured workers attain retirement eligibility age,
death, or disability. Benefits to retired workers and their families and to families of
deceased workers are paid from the OASI Trust Fund. Benefits to disabled workers
and their families are paid from the DI Trust Fund.

The Board of Trustees was established under the Social Security Act to oversee the
financial operations of the OASI and DI Trust Funds.1 The Social Security Act requires
that the Board, among other duties, report annually to the Congress on the Trust Funds’
actuarial (financial) status. Each year, the Trustees of the Social Security Trust Funds
issue an Annual Report on their financial status, including projections of future revenue
and expenditures. The Annual Reports are issued based on calendar year (CY) data
for the previous year. For example, the 2008 Trustees Report was based on the
CY 2007 data.

LEGISLATIVE CHANGES TO SOCIAL SECURITY

In 1981, the President appointed a bipartisan National Commission on Social Security
Reform (informally known as the Greenspan Commission) to study and make
recommendations regarding the short-term financing crisis Social Security was facing.
Estimates were that the OASI Trust Fund would run out of money as early as August
1983. The Commission’s January 1983 report became the basis for the enactment of
legislation that resolved the short-term financing problem while also making other
significant changes to the Social Security Act, including:2

     A gradual increase in the age of eligibility for full retirement benefits from age 65 to
      age 66 in 2009 and age 67 in 2027.


1
    The Social Security Act § 201(c), 42 U.S.C. § 401(c).

2
    Pub. L. No. 98-21, Social Security Amendments of 1983.



Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                1
     Coverage of Federal civilian employees hired after December 31, 1983 and most
      current executive-level political appointees and elected officials (including members
      of Congress, the President, and the Vice President) and Federal judges, effective
      January 1984.
     A delay of the June 1983 Social Security cost of living adjustment (COLA) to
      December 1983. All future COLAs would be effective in December.
     Acceleration of scheduled tax increases for employees and employers, with an
      offsetting tax credit for employees for 1984; increase in the rates for the self-
      employed to equal the combined employee/employer rate but with partially offsetting
      credits and deductions.
     Inclusion of up to 50 percent of Social Security benefits in taxable income of higher
      income beneficiaries. The income thresholds (adjusted gross income plus one-half
      of Social Security benefits) were set at $25,000 for single individuals, $32,000 for
      couples filing jointly, and zero for couples filing separately.

As a result of the 1983 legislation, substantial increases in Trust Funds were estimated
to occur well into the 21st century, so the program was partially advance funded, rather
than being funded on a pay-as-you-go basis.

Also, the Trustees changed the method of calculating the actuarial balances from the
“average-cost method” 3 to the “present-value method” 4 in CY 1988. Before the
1983 amendments took effect, the Trustees used the average-cost method to estimate
the program’s long-range financing. Based on the long-range demographic and
economic assumptions used at that time, the annual growth rate in taxable payroll was
about the same as the annual rate at which the Trust Funds earned interest.5 However,
after the Amendments were enacted, the substantial increases in the Trust Funds along
with reductions in long-range fertility rates and average real-wage growth caused the
annual rate of growth in taxable earnings to become lower than the assumed interest
rate. Therefore, the results of the average-cost method diverged from the present-value
method. While the average-cost method still accounted for most of the effects of the
assumed interest rate, it no longer accounted for all of the interest effects. The
present-value method accounted for the full effect of the assumed interest rates. As a
result, in 1988 the present-value method of calculating the actuarial balance was
reintroduced.


3
 Under the average-cost method, the sum of the annual cost rates (expressed as percentages of taxable
payroll) over the 75-year projection period was divided by the total number of years, 75, to obtain the
average-cost rate per year. The average-income rate was similarly calculated, and the difference
between the average income rate and the average-cost rate was called the actuarial balance.

4
 The present-value method was used before 1973 when the average-cost method was first implemented.
The present-value method uses the difference between the present value of tax income for the period,
and the present value of the cost for the period, each divided by the present value of taxable payroll.

5
    This can also be interpreted as the annual income rate is the same as the annual cost rate.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                     2
LONG-RANGE ESTIMATES

Actuarial estimates depend on a broad set of demographic, economic, and
programmatic factors along with assumptions about those factors. Regarding the OASI
and DI Trust Funds, factors that impact income and expenditure actuarial estimates
include the size and characteristics of the population receiving benefits, the level of
monthly benefit amounts, the size of the workforce, and the level of workers’ earnings.
These factors depend on future birth rates, death rates, immigration, marriage and
divorce rates, retirement-age patterns, disability incidence and termination rates,
employment rates, productivity gains, wage increases, inflation, and many other factors.
Because of the extensive number of factors used in the long-range actuarial estimates,
significant uncertainty surrounds the assumptions. Therefore, the Trustees have used
several methods to help illustrate the uncertainty.

Alternative Assumptions

From 1981 to 1990, the Trustees presented four projection scenarios: I, II-A, II-B, and
III.6 Starting in 1991 through the present, three scenarios were presented: I, II, and III,
with “low-cost,” “intermediate,” and “high-cost” scenarios, respectively.7 Scenario II-B
from the 1983-1990 reports evolved into scenario II (intermediate) in the reports that
followed from 1991 to the present.8 The Intermediate scenario is regarded by the
Trustees as their best estimate and thus was used for the review in this report.9




6
  1990 Annual Report of the Federal Old-Age and Survivors Insurance and Disability Insurance Trust
Funds. Scenarios II-A and II-B used the same demographic assumptions but were different in their
economic assumptions. See 1983 Annual Report – Federal Old-Age and Survivors Insurance and
Disability Insurance Trust Fund, pages 99-101. Scenario II-A assumed 2.0 percent real wage growth and
3 percent inflation over the long term, scenario II-B assumed 1.5 percent real wage growth and 4 percent
inflation.

7
 1991 Annual Report of the Federal Old-Age and Survivors Insurance and Disability Insurance Trust
Fund.

8
  1991 Annual Report of the Federal Old-Age and Survivors Insurance and Disability Insurance Trust
Fund, page 1. “In previous reports, when there were two intermediate sets of assumptions, such tests
were based on the alternative II-B assumptions. Comparisons of intermediate estimates in the 1991
report with corresponding estimates in the 1990 report are also based on the alternative II-B estimates in
the 1990 report.”

9
 For the years 1988 to 1990, our review used the Intermediate II-B projection because that is the
projection that evolved into the Intermediate projection used in later Trustees Reports.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                            3
Long-Range Sensitivity Analysis

Along with presenting estimates based on alternative assumptions, the Trustees also
provided estimates based on long-range sensitivity analyses since 1979. These
estimates illustrate the sensitivity of the long-range actuarial status of the OASDI
program to changes in selected individual assumptions. In the sensitivity analysis, the
intermediate projection is used as the reference point, and one assumption at a time is
varied. The variation used for each assumption reflects the levels used for that
assumption in the low- and high-cost alternative projections.

Stochastic Simulations

Since 2003, the Trustees also provided results from 5,000 independent stochastic
simulations10 of Trust Fund projections over the 75-year period. The additional
estimates provide a range of possible outcomes for the projections. However, the
additional estimates provided no indication of the probability that actual future
experience will be inside or outside the range of these estimates. Each of the
5,000 simulations was determined by allowing individual assumptions to vary
throughout the long-range period. The fluctuation in each variable was projected by
using standard time-series modeling, a method designed to help make references
based on historical data.

RECENT NEWS

The sustainability of Social Security’s OASDI Trust Funds has been the topic of many
recent news articles. It has been reported in several articles that Social Security would
pay out more in benefits than it would collect in taxes over the next several years and
essentially go cash negative earlier than projected. The recent economic downturn has
impacted the cash inflows to Social Security. The various articles predict Social
Security will experience a cash deficit beginning in 2010.

February 2010 USA Today article11 reported that Social Security took in $3 billion more
in taxes in 2009 than it paid out in benefits. This represented a $60 billion decline from
2008. The article further stated that the decline in cash inflow was a result of higher
unemployment rates and an increase in the number of retired and disabled
beneficiaries.



10
   Stochastic models are used for projecting a probability distribution of potential outcomes. Such models
allow for random variation in one or more variables through time. The random variation is generally
based on fluctuations observed in historical data for a selected period. Distributions of potential
outcomes are derived from a large number of simulations, each of which reflects random variation in the
variable(s).

11
 Wolf, Richard, “Rash of Retirements Pushes Social Security to Brink.” USA Today, 8 February 2010.
Web. 22 February 2010.



Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                        4
In July 2009, Fortune Magazine compared the prior years of OASDI Trustees Reports
and showed that cash flow projections had drastically shrunk from CY 2008 to 2009.12
The article stated that the 2008 OASDI Trustees Report projected a cash surplus of
$87 billion in 2009 and $88 billion in 2010; however, in the 2009 Social Security
Trustees Report, the cash flow projections for 2009 and 2010 had shrunk by almost
80 percent, to $19 billion and $18 billion, respectively.

To gain a perspective on the year-to-year fluctuations and compare actuarial projections
to actual performance of the Trust Funds, we reviewed relevant laws, analyzed the
1988 through 2009 Trustees Reports, and reviewed applicable news articles in light of
the current economic climate. Specifically, we reviewed the 1988 through 2009 OASDI
Trustee Reports for the following items:

      1. projected costs and income for CYs 1995, 2000, 2005, and 2009 compared to
         actual amounts;
      2. projected costs and income for CY 2010;
      3. projected year the outgoing costs would exceed income;
      4. projected year funds would be exhausted; and
      5. future cost rates and income rates for CYs 2010, 2015, 2060, and the 75th year
         projection.

We also reviewed the income and cost projections for Fiscal Year (FY) 201013 reported
by the Congressional Budget Office (CBO) in January 2006 – 2010.




12
  Sloan, Allan, “The Next Great Bailout: Social Security.” Money.CNN.com/magazines/fortune. Fortune,
30 July 2009. Web. 7 January 2010.

13
     The information obtained from the CBO Website was based on FY data.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                  5
                                                          Results of Review
Overall, our review focused on the fluctuations in projected costs and income for
CYs 2009 and 2010. For CY 2009, the projections were compared to the actual state of
the OASDI Trust Funds.

PROJECTED COSTS AND INCOME

CY 2009

We reviewed the Trustees Reports published from 2000 through 2009 to compare the
projected income excluding interest14 and costs for CY 2009 to the actual amounts
reported by the Social Security Administration (SSA).15 For 2009, we reviewed the
intermediate assumption with the low- and high-cost assumptions to illustrate the
volatility of the projections in comparison to the actual amounts.16 The actual net cash
flow for CY 2009 was $3.4 billion (see Figure 1). The Trustees’ cash projections for
2009 significantly differed from the actual net cash flow for all three Assumption
categories. The graph, however, shows that the projections in the 2009 Trustees
Report anticipated more accurately the drop in the net cash flow for CY 2009. Once the
economic recession began in 2008, and the large 5.8 percent COLA of December 2008
was known, the Trustees altered their projections and assumptions to illustrate these
changes and the expected course of the recession that was already underway.

To determine why there was such a large gap in the projected net cash flow from the
actual balance, we reviewed the assumptions used for the projections in comparison to
the effects the economy has had on those factors. Specifically, we reviewed factors in
the 2005, 2007, and 2009 Trustees Reports that could potentially have impacted the
Trust Funds’ income and program costs for CY 2009. One factor that generated a
reduction in revenue for the Trust Funds was the increase in unemployment. The
2005 Trustees Report projected an unemployment rate of 4.9, 5.4, and 7.2 percent for
the low-cost, intermediate, and high-cost assumptions, respectively, for CY 2009.
According to the Department of Labor (DoL) statistics, the actual unemployment rate as

14
  For OASDI, income excluding interest consists of payroll-tax contributions, proceeds from taxation of
OASDI benefits, and miscellaneous transfers from the General Fund of the Department of the Treasury.
Cost consists of benefit payments, administrative expenses, net transfers from the Trust Fund to the
Railroad Retirement program, and payments for vocational rehabilitation services for disabled
beneficiaries.

15
  As of April 2010, the 2010 Trustees Report had not been released. Actual amounts for 2009
unemployment rates were obtained from the DoL.

16
  The Intermediate assumption (alternative II) is the set of assumptions that represented the Trustees’
best estimates of likely demographic, economic, and program-specific conditions. Low-cost assumptions
(alternative I) assumed relatively rapid growth, low inflation, and favorable demographic and program-
specific conditions. High-cost assumptions (alternative III) assumed relatively slow economic growth,
high inflation, and unfavorable demographic and program-specific conditions.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                         6
of December 2009 was 10 percent. Even the 2007 Trustees Report did not project such
a high unemployment rate. The 2007 Report projected CY 2009 unemployment to be
4.7, 5.0, and 5.8 percent for the low-cost, intermediate, and high-cost assumptions,
respectively. The 2009 Trustees Report projected an unemployment rate of only
8.5 percent for the high-cost assumption.

The high unemployment rates have had a significant impact on the cash flow for the
Trust Funds. The net cash flow projections in the 2009 Trustees Report shrunk by
almost 80 percent for CYs 2009 and 2010. In the previous Trustees Report, cash flow
was projected to be $87 billion and $88 billion for CYs 2009 and 2010. However, based
on the figures in the 2009 Report, those projections have decreased to $19 billion and
$18 billion, respectively. Based on our review, we determined that the actual CY 2009
cash surplus was only $3.4 billion, a difference of over $15 billion. SSA’s Chief Actuary
was quoted in Fortune Magazine stating that the major reason for the decrease in cash
surplus was that the recession had cost millions of jobs, reducing Social Security’s tax
income below projections.17

Additional program costs have also affected the Trust Funds’ net cash flow. For
instance, OASDI beneficiaries received a 2.3-percent COLA for 2008. However, based
on the spike in energy costs, beneficiaries received a 5.8 percent increase in benefit
payments in 2009. The 2008 Trustees Report only projected a 2.7 percent-COLA
increase for CY 2009. The total amounts of retirement and disability claims have been
expected to increase 9 and 12 percent, respectively, because of the downturn in the
economy and the first baby boomer retirees. According to SSA, new claims, particularly
for disability, will continue to increase beyond the actuaries’ expectations. In the
FY 2010 Justification of Estimates for Appropriations Committees, SSA stated, “. . . we
now expect 220,000 more retirement claims and 340,000 disability claims in FY 2010
than we projected a year ago. We will process an additional 20,000 retirement claims
and 200,000 initial disability claims over the FY 2009 level.”18 These additional costs
and increased workload along with the reduced tax income have caused the Trust
Funds’ net cash flow to fall to an all time low since the enactment of the
1983 Amendments to the Social Security Act. A representative of the Committee for a
Responsible Federal Budget, stated in a USA Today article,19 “The impact of the
recession shows that ‘for all these projections, unexpected things happen.”




17
  Sloan, Allan. “The Next Great Bailout: Social Security.” Money.CNN.com/magazines/fortune. Fortune,
30 July 2009. Web. 7 January 2010.

18
  Appendix D shows a graph of projected SSA claims. This chart was part of the FY 2010 Justification of
Estimates for the Appropriations Committees, http://www.ssa.gov/budget/FY10ConsolidatedCJ.pdf.

19
     See Footnote 11.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                     7
                                              Figure 1: 2000-2009 Trustees' Projections for CY 2009 vs. Actual
                                                                2009 OASDI Net Cash Flow
                                               Intermediate Assumption    Low Cost Assumption    High Cost Assumption
                                       $140
                                       $130
                                       $120
                                       $110
         Net Cash Flow (in billions)




                                       $100
                                        $90
                                        $80
                                        $70
                                        $60
                                        $50
                                        $40
                                        $30
                                                                  Actual 2009 Net
                                        $20
                                                                  Cash Flow ($3.4B)
                                        $10
                                         $-
                                           2000      2001     2002       2003    2004     2005      2006    2007        2008   2009
                                                                          Year Trustee Report Published


       Source: OASDI Trustees Reports published from 2000 through 2009. Income values used
       exclude interest. http://mwww.ba.ssa.gov/OACT/TR/index.html.

CY 2010

We reviewed the CY 1988 through 200920 Trustees Reports to assess the fluctuation in
the projected net cash flow of the OASDI Trust Funds for CY 2010. The Trustees’ cash
projections for 2010 fluctuated significantly from the 1988 report to the 2009 report (see
Figure 2). Recent news articles have indicated that Social Security costs could exceed
its income as early as 2010 because the economic recession has impacted the cash
flow of Social Security far worse than projected. SSA’s Chief Actuary stated in a USA
Today article, “Things are a little bit worse than had been expected. Clearly, we’re
going to be negative for a year or two.”21 Based on the Trustees’ projections in

20
  For the analysis of projected costs and income versus actual, the data from the 1988 Trustees Report
were only reported in current dollars, whereas the data used for the remaining years were reported in
constant dollars meaning it was adjusted for the Consumer Price Index (CPI). To make the 1988 data
comparable, we received confirmation from the Office of the Actuary to divide the current income and
costs amounts reported by the respective Adjusted CPI reported in the 1988 Trustees Report.

21
     See Footnote 11.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                                                     8
Figure 2, the Trust Fund’s cash flow was never estimated to go negative. From 2002
through 2008, a surplus of over $80 billion was projected for CY 2010. Based on the
extensive number of economic, demographic, and programmatic factors used in the
actuarial projections, future excess cash over expenses is difficult to accurately project.


                                               Figure 2: 1988-2009 Trustees' Projections for CY 2010

                                                                    Intermediate Assumption
                                        $110
                                        $100
                                        $90
                                        $80
          Net Cash Flow (in billions)




                                        $70
                                        $60
                                        $50
                                        $40
                                        $30
                                        $20
                                        $10
                                          $-
                                            1988   1990   1992   1994     1996    1998   2000    2002   2004   2006   2008

                                                                        Year Trustee Report Published

        Source: OASDI Trustees Reports published from 1988 through 2009. Income values used exclude interest.
        http://mwww.ba.ssa.gov/OACT/TR/index.html.

Because of the current Health Care and Education Reconciliation Act of 2010,22 the
2010 Trustees Report release date of April 1, 2010 has been delayed to June 30, 2010.
At this time, we are uncertain of the effect the current legislation and the economy will
have on the 2010 Trustees Report.

In addition to reviewing the projections in the Trustees Reports, we analyzed projections
for 2010 reported by CBO. The CBO projections were based on FY data as opposed to
the CY data reported in the Trustees Reports. The CBO projections also showed
significant variance from the expected 2010 Trust Funds’ performance (see Figure 3).




22
     Pub. L. No. 111-152.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                                            9
                                               Figure 3: 2006-2010 Congressional Budget Office Projections
                                                                       for FY 2010


                                       $110
                                       $100
                                        $90
                                       $80
         Net Cash Flow (in billions)




                                       $70
                                       $60
                                       $50
                                       $40
                                       $30
                                       $20
                                       $10
                                         $-
                                       $(10)
                                       $(20)
                                       $(30)
                                           2006              2007               2008              2009        2010

                                                          Year Congressional Budget Office Report Published

     Source: CBO Supplemental Data on Mandatory Spending Fact Sheets for OASDI. Income values used exclude interest.
     http://www.cbo.gov.

Analysis of Additional CYs

A similar analysis was conducted for CYs 1995, 2000, and 2005. The analysis is
located in Appendices E through G.

PROJECTED FUTURE OUTCOME OF OASDI TRUST FUNDS

We reviewed the Trustees Reports published from 1988 through 2009 to assess the
fluctuation in the projected year in which outgoing annual costs would exceed the tax
income for the combined OASDI Trust Funds and the projected year funds would be
exhausted. The analysis for this review is located in Appendices H and I.

FUTURE PROJECTED INCOME AND COST RATES23

We reviewed the Trustees Reports published from 1988 through 2009 to measure the
fluctuations in the projected future cost rates and income rates for CYs 2010, 2015, and
2060 and the projected 75th year for each report. Both the cost and income rates are



23
     All future projections are based on current law.



Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                                      10
expressed as a percentage of taxable payroll.24 The annual income rate is the sum of
the tax contribution rate and the ratio of income from taxation of benefits to the OASDI
taxable payroll for the year. The annual cost rate is the ratio of the cost of the program
to the taxable payroll for the year. Because long-term projected income and cost rates
are solely based on actuarial estimates and we do not have actual data for comparative
purposes, we reviewed the rates to identify the fluctuations of Social Security’s
projected financial conditions throughout the 75-year projection period. The review of
the long-term projected income and cost rates for CYs 2010, 2015, and 2060 and the
75th year are in Appendix J.

FUTURE OF THE DI TRUST FUNDS

According to SSA’s Chief Actuary, the solvency of the Trust Funds is not measured by
the net cash flow. Net cash flow is negative when tax income alone is not sufficient to
pay the total program cost. In this case, some of the Trust Funds’ assets are redeemed
to augment current tax revenue, allowing the timely, full payment of benefits. In fact, if
the net cash flow shortfall is less than interest income to the fund, total fund assets will
continue to grow.

SSA’s Chief Actuary also stated that Trust Fund solvency is defined for a point in time
as the ability to pay all of the costs of providing scheduled benefits in full on a timely
basis. The Trust Funds are thus solvent through any month where there is a positive
asset balance at the end of the month. The Trustees report on the financial adequacy
of the Trust Funds using the Trust Fund ratio. The Trust Fund ratio is defined as the
assets at the beginning of a year expressed as a percentage of the projected cost for
the year. Thus, the Trust Fund ratio represents the proportion of a year’s cost that can
be paid with the funds available at the beginning of the year. A Trust Fund ratio of
100 percent—that is, assets at the beginning of each year at least equal to the projected
cost for the year—is generally assumed to provide a reasonable “contingency reserve”25
and indicates the Trust Fund’s ability to cover most short-term contingencies. That level
of projected assets for any year means that if expenditures exceed total income, the
Trust Fund reserves, combined with annual tax revenues, would be sufficient to pay full
benefits for several years, allowing time for legislative action to restore financial
adequacy.

Based on the 2009 Trustees Reports, the projected Trust Fund ratios for OASI alone,
and for the OASI and DI combined, under the intermediate assumptions exceeded
100 percent throughout the short-range period and therefore OASI and DI satisfied the
Trustees’ short-term test of financial adequacy. However, considering the DI program
alone, its Trust Fund ratio was projected to fall below the 100 percent level by the
beginning of 2014. Figure 4 shows that while the Trustees are predicting the OASI

24
  The OASDI taxable payroll consists of total earnings that are subject to OASDI taxes including
relatively small adjustments.

25
  A Trust Fund level of about 1 year’s cost is considered to be an adequate reserve for unforeseen
contingencies.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                    11
Trust Fund to remain above the 100 percent Trust Fund ratio through 2018, the DI Trust
Fund is expected to fall below 100 percent for the intermediate assumption (II) as early
as 2014. The DI program costs have exceeded tax revenue since 2005 and Trust Fund
exhaustion is projected for 2020.
                       Figure 4:




       Source: OASDI Trustees Reports published in 2009.
       http://mwww.ba.ssa.gov/OACT/TR/2009/tr09.pdf


With the prospect of exhaustion of the DI Trust Fund looming in the near future, action
should be taken to ensure that beneficiaries receive their full benefit payments. Absent
another act of Congress, the Social Security Act does not permit further interfund
borrowing.26 The Social Security Act also specifies that benefit payments shall be made
only from the Trust Funds (that is, accumulated Trust Fund assets and current tax
income).27 The Antideficiency Act prohibits Government spending that exceeds
available funds.28 Consequently, if the Social Security Trust Funds become insolvent—
that is, if current tax income and accumulated assets are not sufficient to pay the
benefits to which people are entitled—current law would effectively prohibit full Social
Security benefits from being paid on time.
26
     The Social Security Act § 201(l)(1), 42 U.S.C. § 401(l)(1).

27
     The Social Security Act § 201(h), 42 U.S.C. § 401(h).

28
     31 U.S.C. § 1341(a)(1)(A).


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                     12
                                                                    Conclusion
Overall, our review determined that the Intermediate Trustees’ Projections did not
closely anticipate the actual Trust Funds’ performance for CYs 2009 and 2010. The
extensive number of economic, demographic, and programmatic factors involved in the
actuarial estimates makes it difficult to project the long-term flow of money needed to
meet expenses when they become due. Other sources, such as CBO, also failed to
predict the downturn in the economy.

Currently, the unexpected changes in the economy have caused the Trustees’
projections to be more favorable than the current state of the Trust Funds. Factors such
as the unexpected increase in the unemployment rate along with increased disability
and retirement claims have caused the Trust Funds’ cash surplus to fall lower than
anticipated.




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                     13
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Social Security Amendments of 1983
APPENDIX D – Projected Social Security Administration Claims
APPENDIX E – Calendar Year 1995 Analysis
APPENDIX F – Calendar Year 2000 Analysis
APPENDIX G – Calendar Year 2005 Analysis
APPENDIX H – Projected Year the Outgoing Costs Would Exceed Income
APPENDIX I – Projected Year of Exhausted Funds
APPENDIX J – Future Projected Income Rates and Cost Rates
APPENDIX K – Trustee Report References
APPENDIX L – OIG Contacts and Staff Acknowledgments




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                                                                      Appendix A

Acronyms
    CBO                Congressional Budget Office

    COLA               Cost of Living Adjustment

    CPI                Consumer Price Index

    CY Calendar                   Year

    DI Disab                 ility Insurance

    DoL                Department of Labor

    FY Fiscal                 Year

    GDP                Gross Domestic Product

    OASI               Old-Age and Survivors Insurance

    OACT               Office of the Actuary

    OASDI Old-Age,               Survivors and Disability Insurance

    Pub. L. No.        Public Law Number

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    U.S.C.             United States Code




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                                                                     Appendix B

Scope and Methodology
Our objective was to determine how the short- and long-range estimates for cost and
income presented in the annual Trustees Reports fluctuated from year to year and how
accurately the Trustees’ projections reflected the actual performance of the Old-Age,
Survivors and Disability Insurance (OASDI) Trust Funds. To accomplish our objective,
we:

 Reviewed applicable Federal laws.

 Reviewed the Trustees Reports published from 1988 through 2009.

 Reviewed relevant news articles relating to the sustainability of the OASDI Trust
  Funds.

 Analyzed the projections for income and costs for several calendar years presented
  in the Trustees Reports.

 Analyzed the projections for income and costs for Fiscal Year 2010 reported by the
  Congressional Budget Office.

 Analyzed the projected year funds will become exhausted as well as the year in
  which outgoing costs will exceed income.

We performed our review in February and March 2010 in Baltimore, Maryland. The
reports reviewed were the Trustees Reports published from 1988 to 2009. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                                                                    Appendix C

Social Security Amendments of 1983




    Source: Summary of the 1983 Trustees Report
    http://www.ssa.gov/history/reports/trust/trustreports.html




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                                                                                                      Appendix D




  Source: Fiscal Year 2010 Social Security Administration Justification of Estimates for Appropriations Committees
  http://www.ssa.gov/budget/FY10ConsolidatedCJ.pdf




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                                                                                                 Appendix E

Calendar Year 1995 Analysis
We reviewed the Trustees Reports published from 1988 through 1995 to compare the
projected costs and income excluding interest for the Calendar Year (CY) 1995 to the
actual amounts. Figure E-1 shows the actual cash surplus for CY 1995 was
$24.7 billion. In 1994, the Trustees most accurately projected this surplus with an
estimate of $25.5 billion.

We then reviewed the projected and actual demographic, economic, and
methodological assumptions to consider possible causes in the fluctuation of the
projected net cash flow to the actual. In the 1989 Trustees Report, the average annual
percentage increase in average annual wage in covered employment was projected to
increase 5.5 percent for CY 1995. However, based on the 1996 Trustees Report, the
amount only increased 4.1 percent. Also, based on the 1989 Trustees Report, the
number of projected beneficiaries to receive benefits in 1995 was about 42.1 million. A
total of 43.4 million actually received monthly Old-Age, Survivors and Disability
Insurance benefits at the end of December 1995. The increase in the number of
beneficiaries and the decrease in payroll tax income—as a result of a smaller
percentage increase of average annual wage—potentially impacted the gap between
projected and actual net cash flow.

                                      Figure E-1: 1988-1995 Trustees' Projections for CY 1995 vs. Actual
                                                         1995 OASDI Net Cash Flow
                                                             Intermediate Assumption
                                $55

                                $50
  Net Cash Flow (in billions)




                                $45

                                $40

                                $35
                                               Actual 1995 Net
                                $30            Cash Flow ($24.7B)


                                $25

                                $20
                                   1988        1989     1990        1991      1992     1993    1994        1995
                                                           Year Trustee Report Published

  Source: OASDI Trustees Reports published from 1988 through 1995. Income values used exclude interest.
  http://mwww.ba.ssa.gov/OACT/TR/index.html


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                                                                                                   Appendix F

Calendar Year 2000 Analysis
We reviewed the Trustees Reports published from 1988 through 2000 to compare the
projected costs and income excluding interest for the Calendar Year (CY) 2000 to the
actual amounts. Figure F-1 shows the actual cash surplus for CY 2000 was
$88.8 billion. The Trustees most accurately projected the 2000 net cash flow in the
2000 Trustees Report estimating a value of $90.4 billion.

We then reviewed the projected and actual assumptions for CY 2000 to determine if any
specific assumptions potentially affected the fluctuation in projected to actual net cash
flow amounts. Specifically, we reviewed the 1996 Trustees Report because the
projection in this report appeared to be one of the most inaccurate. In the 1996 report,
the Trustees projected the average annual wage in covered employment to increase
4.3 percent for CY 2000. However, according to the 2001 Trustees report, the average
annual wage actually increased 5.5 percent, which would result in more taxable payroll.
Another factor that appeared to have affected the increase in actual income related to
the unemployment rate. The 1996 Trustees Report also projected the unemployment
rate to be 6.0 percent in CY 2000. The average annual unemployment rate for
2000 was actually 4.0 percent. Both of these factors could have potentially resulted in
higher income for the Trust Funds. The reduced unemployment along with a higher
percentage increase in average annual wages had an effect on the change in net cash
flow.

                                      Figure F-1: 1988-2000 Trustees' Projections for CY 2000 vs. Actual
                                                         2000 OASDI Net Cash Flow
                                                             Intermediate Assumption

                                $95
  Net Cash Flow (in billions)




                                $85

                                $75                   Actual 2000 Net
                                                      Cash Flow ($88.8B)
                                $65

                                $55

                                $45

                                $35

                                $25
                                   1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000
                                                          Year Trustee Report Published


  Source: OASDI Trustees Reports published from 1988 through 2000. Income values used exclude interest.
  http://mwww.ba.ssa.gov/OACT/TR/index.html

Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                                                                                  Appendix G

Calendar Year 2005 Analysis
We reviewed the Trustees Reports published from 1988 through 2005 to compare the
projected income excluding interest and costs for the Calendar Year (CY) 2005 to the
actual amounts. Figure G-1 shows the actual cash surplus for CY 2005 was
$77.6 billion. The 1989 Trustees Report most accurately projected the 2005 cash
balance with an estimated $77.5 billion surplus.

We then reviewed estimated and actual assumptions that potentially affected the
2005 net cash flow. Specifically, we reviewed the assumptions projected in the
1996 and 2002 Trustees Reports. As shown in Figure G-1, these 2 years are the most
inaccurate under and overestimates, respectively. The 1996 Trustees Report projected
Real Gross Domestic Product (GDP)1 to increase in CY 2005 by 2 percent. However,
according to the 2006 Trustees Report, the real GDP actually increased 3.6 percent.
The 1996 Report also projected for CY 2005 approximately 152.4 million people will
have earnings covered by Social Security and paid payroll taxes. In CY 2005, there
was actually an estimated 159 million people who paid payroll taxes. This increase of
over 6.5 million people impacted the surplus. The 1996 Report also projected
49.6 million beneficiaries receiving benefits in CY 2005. However, at the end of 2005,
approximately 48 million people received benefits that resulted in a lower cost than
projected.

The 2002 Trustees Report projected an average annual percentage increase in the
Consumer Price Index (CPI)2 for CY 2005 as 2.9 percent. The 2006 Trustees Report
presented the increase in CPI for 2005 as 3.5 percent. This gap in the increase of CPI
likely affected the lower costs projected for 2005. This resulted in a larger surplus than
projected.




1
    GDP is defined as the value of total output of goods and services.

2
  The CPI is an official measure of inflation in consumer prices. The Trustees Reports references to CPI
relate to the CPI for Urban Wages Earners and Clerical Workers (CPI-W).


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                   G-1
                                           Figure G-1: 1988-2005 Trustees' Projections for CY 2005 vs.
                                                        Actual 2005 OASDI Net Cash Flow
                                                                Intermediate Assumption
                                    $110

                                    $100          Actual 2005 Net
                                                  Cash Flow ($77.6B)
                                    $90
      Net Cash Flow (in billions)




                                    $80

                                    $70

                                    $60

                                    $50

                                    $40

                                    $30

                                    $20
                                       1988      1990    1992     1994     1996       1998        2000   2002   2004
                                                                  Year Trustee Report Published


  Source: OASDI Trustees Reports published from 1988 through 2005. Income values used exclude interest.
  http://mwww.ba.ssa.gov/OACT/TR/index.html




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                                      G-2
                                                                        Appendix H

Projected Year Outgoing Costs Would Exceed
Income
We reviewed the Calendar Years (CY) 1988 through 2009 OASDI Trustees Reports to
assess the fluctuation in the projected year in which outgoing annual costs would
exceed the tax income for the combined Old-Age, Survivors and Disability Insurance
(OASDI) Trust Funds. Figure H-1 shows the Trustees projected this scenario as early
as 2012 and as late as 2020. From the 1990 to 1991 Trustees Reports, the projected
year of excess costs over income changed from year 2020 to year 2017. Based on the
1991 Trustees Report, this change was due to several demographic trends. First, rapid
growth was expected in the aged population beginning around the year 2010 because
of the large number of persons born in the 2 decades after World War II. Second,
assumed declines in death rates increased the number of aged persons more gradually,
but on a steady and permanent basis. At the same time, birth rates, which declined in
the 1960s, were assumed to remain relatively low in the future. However, increases in
net immigration, which resulted from the Immigration Act of 19901, contributed to larger
numbers of young people, partially offsetting the lower fertility rates.

Another large fluctuation in years occurred from the 1993 Trustees Report to the
1994 Report. Based on projections in 1993, the Trustees estimated that outgoing costs
would exceed income in 2017; however, the 1994 report states that outgoing costs
would exceed income in 2013. Based on the 1994 Trustees Report, several economic
assumptions were modified that resulted in the fluctuation. The most significant change
was a decrease in the annual rate of change in the real average wage. The assumed
real-wage differential was reduced from 1.1 percent in the 1993 report to 1.0 percent for
the intermediate set of assumptions in the 1994 report. The second economic
assumption change was the lowering of the projected labor force participation rates
reflecting increases in the expected number of people who would receive disabled
worker benefits. Also, one minor demographic assumption change was decreasing the
total fertility rate to reflect observed birth rates in 1992 which were lower than expected.
Each of the modifications resulted in a decrease in the long-range actuarial balance.




1
    Pub. L. No. 101-649


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                       H-1
   Projected Year Outgo Exceeds Income          Figure H-1: Trustees Projected Year Outgo Exceeds Income


                                         2022


                                         2020


                                         2018


                                         2016

                                         2014


                                         2012


                                         2010
                                            88
                                            89
                                            90
                                            91
                                            92
                                            93
                                            94
                                            95
                                            96
                                            97
                                            98
                                            99
                                            00
                                            01
                                            02
                                            03
                                            04
                                            05
                                            06
                                            07
                                            08
                                            09
                                          19
                                          19
                                          19
                                          19
                                          19
                                          19
                                          19
                                          19
                                          19
                                          19
                                          19
                                          19
                                          20
                                          20
                                          20
                                          20
                                          20
                                          20
                                          20
                                          20
                                          20
                                          20
                                                                  Trustee Report Published Year

  Source: OASDI Trustees Reports published from 1988 through 2009.
  http://mwww.ba.ssa.gov/OACT/TR/index.html

Based on several news venues, it is predicted that the 2010 Trustees Report will show a
significant fluctuation in the year outgoing costs exceed income from the 2009 Trustees
Report. The projections in 2009 anticipated Social Security’s annual surplus of tax
income over expenditures would fall sharply and remain constant until 2010 because of
the economic recession, and cash flow deficits would begin in 2016. However, it has
been indicated that Social Security costs could exceed income as early as
2010 because the economic recession has impacted the cash flow of Social Security
far worse than projected.




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                          H-2
                                                                                Appendix I

Projected Year of Exhausted Funds
We reviewed the Trustees Reports published from 1988 through 2009 to assess the
fluctuation in the projected year funds would be exhausted in the Old-Age, Survivors
and Disability Insurance (OASDI) Trust Funds. Figure I-1 shows that the projected year
has fluctuated from as early as 2029, which was projected in the 1994, 1996, and
1997 Trustees Reports to as distant as 2048, which was estimated in the 1988 Trustees
Report. According to the 1994 Trustees Report, the fluctuation from the 1993 report to
the 1994 report was largely due to updated mortality rates. The projected rates for
males were lowered based on updated data, which was lower than expected for
1992 and 1993. Economic assumptions also had significant effects on the long-range
actuarial balance. First, the ultimate real-wage differential1 was reduced from 1.1 to
1.0 percent for the intermediate set of assumptions. Second, projected labor force
participation rates were lowered. These rates reflected an increase in the expected
number of people who would receive disabled worker benefits in the future. Third, data
for 1993 indicated a larger than expected drop in the proportion of taxable covered
wages. This effect, presumably based on higher increases in wages for high paid
workers than for low and average wage earners, resulted in a slightly lower level of
taxable payroll throughout the long-range projection period.




1
 The percentage change in the average covered wage minus the percentage change in the Consumer
Price Index. This differential is closely related to assumed growth rates in average earnings and
productivity.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                              I-1
                                               Figure I-1: Trustees Projected Year of Exhausted Funds


                                        2050
                                        2048
    Projected Year of Exhausted Funds




                                        2046
                                        2044
                                        2042
                                        2040
                                        2038
                                        2036
                                        2034
                                        2032
                                        2030
                                        2028
                                        2026
                                        2024
                                        2022
                                        2020

                                           00
                                           01




                                           05
                                           06
                                           07
                                           08
                                           09
                                           02
                                           03
                                           04
                                           88




                                           94


                                           96
                                           97
                                           98
                                           99
                                           89
                                           90
                                           91
                                           92
                                           93


                                           95




                                         19
                                         20
                                         20




                                         20
                                         20
                                         20
                                         20
                                         20
                                         19
                                         19




                                         20
                                         20
                                         20
                                         19
                                         19
                                         19
                                         19
                                         19
                                         19
                                         19
                                         19
                                         19




                                                                Trustee Report Published Year



  Source: OASDI Trustees Reports published from 1988 through 2009.
  http://mwww.ba.ssa.gov/OACT/TR/index.html




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                       I-2
                                                                                                   Appendix J

Future Projected Income Rates and Cost
Rates1
Projected Calendar Year 2010

We reviewed the Trustees Reports published from 1988 through 2009 to measure the
fluctuations in the projections of the cost rates and income rates excluding interest for
Calendar Year (CY) 2010. Based on Figure J-1, the income rates have remained
relatively constant because the projections are largely a reflection of the tax rates
specified in the law. Conversely, the cost rates fluctuate due to various factors. For
instance, the projected cost rates for CY 2010 increased rapidly from the 1988 to
1997 Trustees Reports due to the increase in the projected number of beneficiaries
compared to the number of covered workers. Cost rates then began to decline as the
Trustees projected a more favorable economic growth until the 2008 Trustees Report
when the current economic recession began to affect the projected cost rates.




    Source: OASDI Trustees Reports published from 1988 through 2009. Income rates used exclude interest.
    http://mwww.ba.ssa.gov/OACT/TR/index.html




1
  See Future Projected Income and Cost Rates section in Results of Review for a description of the
income rates, cost rates, and taxable payroll.


Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                          J-1
Projected Calendar Year 2015

We reviewed the Trustees Reports noted above to measure the fluctuations in the
projections of the cost rates and income rates for CY 2015. Figure J-2 shows several
years in which the cost rates were projected to exceed the income rates. For more
information on projected years in which costs exceeded income, see Appendix H.




  Source: OASDI Trustees Reports published from 1988 through 2009. Income rates used exclude interest.
  http://mwww.ba.ssa.gov/OACT/TR/index.html


Projected Calendar Year 2060

We also reviewed the Trustees Reports to observe the trend of projections for cost rates
and income rates for CY 2060. Figure J-3 demonstrates the Trustees projections of
higher cost rates than income rates for each year.




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                        J-2
       Source: OASDI Trustees Reports published from 1988 through 2009. Income rates used exclude interest.
       http://mwww.ba.ssa.gov/OACT/TR/index.html

Projected 75th Year

Finally, we reviewed the Trustees Reports to analyze the variations in the projections of
cost and income rates for the 75th projected year. The long-range estimates in the
Trustees Reports are provided in increments of 5 years. Therefore, we reported the
cost and income rates from the 1990, 1995, 2000, and 2005 Trustees Reports for the
75th year. Figure J-4 shows that the Trustees’ cost rate projections have fluctuated on
several occasions. The uncertainty in the vast number of assumptions used to project
income and cost rates in 75 years allows for fluctuations.




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                             J-3
  Source: OASDI Trustees Reports published from 1988 through 2009. Income rates used exclude interest.
  http://mwww.ba.ssa.gov/OACT/TR/index.html




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                        J-4
                                                                                       Appendix K
 The table below provides the table number reference from each Trustees Report that
 was used as the source for the graphs throughout the report.

       Figure       Figure 2   Figure        Figure     Figure     Figure    Figure     Figure    Figure
          1                     E-1            F-1       G-1         J-1       J-2        J-3       J-4

1988      - Table               Table         Table      Table     Table     Table       Table      -
                    G1 & G2    G1 & G2       G1 & G2    G1 & G2     26        26          26
1989      -         Table F2   Table F2      Table F2   Table F2   Table     Table       Table      -
                                                                    26        26          26

1990      -         Table F2   Table F2      Table F2   Table F2   Table     Table       Table    Table
                                                                    26        26          26       26

1991      -         Table F2   Table F2      Table F2   Table F2   Table     Table       Table      -
                                                                    26        26          26
1992      - Table               Table         Table      Table      Table     Table      Table      -
                     III.B2     III.B2        III.B2     III.B2    II.F.13   II.F.13    II.F.13

1993      - Table               Table         Table      Table      Table     Table      Table      -
                     III.B.2    III.B.2       III.B.2    III.B.2   II.F.13   II.F.13    II.F.13
1994      - Table               Table         Table      Table     Table     Table       Table      -
                     III.B2     III.B2        III.B2     III.B2    II.F13    II.F13      II.F13
1995      - Table               Table         Table      Table     Table     Table       Table    Table
                     III.B2     III.B2        III.B2     III.B2    II.F13    II.F13      II.F13   II.F13
1996      - Table                  - Table               Table     Table     Table       Table      -
                     III.B2                   III.B2     III.B2    II.F13    II.F13      II.F13
1997      - Table                  - Table               Table     Table     Table       Table      -
                     III.B2                   III.B2     III.B2    II.F13    II.F13      II.F13

1998      - Table                  - Table               Table     Table     Table       Table      -
                     III.B2                   III.B2     III.B2    II.F13    II.F13      II.F13
1999      - Table                  - Table               Table     Table     Table       Table      -
                     III.B2                   III.B2     III.B2    II.F13    II.F13      II.F13
2000    Table        Table         - Table               Table     Table     Table       Table    Table
        III.B2       III.B2                   III.B2     III.B2    II.F13    II.F13      II.F13   II.F13
2001    Table        Table         --                    Table     Table     Table       Table      -
        VI.E8        VI.E8                               VI.E8     IV.B1     IV.B1       IV.B1
2002    Table        Table         --                    Table     Table     Table       Table      -
        VI.E8        VI.E8                               VI.E8     IV.B1     IV.B1       IV.B1
2003    Table        Table         --                    Table     Table     Table       Table      -
        VI.F8        VI.F8                               VI.F8     IV.B1     IV.B1       IV.B1
2004    Table        Table         --                    Table     Table     Table       Table      -
        VI.F8        VI.F8                               VI.F8     IV.B1     IV.B1       IV.B1




 Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                                  K-1
       Figure   Figure 2   Figure     Figure    Figure    Figure     Figure   Figure   Figure
          1                 E-1         F-1      G-1        J-1        J-2      J-3      J-4

2005    Table     Table       --                 Table     Table     Table    Table    Table
        VI.F7     VI.F7                          VI.F7     IV.B1     IV.B1    IV.B1    IV.B1
2006    Table     Table       --                   -       Table     Table    Table      -
        VI.F7     VI.F7                                    IV.B1     IV.B1    IV.B1
2007    Table     Table       --                   -       Table     Table    Table      -
        VI.F7     VI.F7                                    IV.B1     IV.B1    IV.B1
2008    Table     Table       --                   -       Table     Table    Table      -
        VI.F7     VI.F7                                    IV.B1     IV.B1    IV.B1
2009    Table     Table       --                   -       Table     Table    Table      -
        VI.F7     VI.F7                                    IV.B1     IV.B1    IV.B1




 Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)                       K-2
                                                                     Appendix L

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

   Mark Meehan, Audit Manager, Financial Audit Division

Acknowledgments
In addition to those named above

   Kelly Stankus, Auditor

   Yvasne Simmons, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-20134.




Quick Response Evaluation: Trust Fund Projections (A-15-10-20134)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
